             Audit Report




OIG-10-039
AUDIT REPORT
INFORMATION TECHNOLOGY: BPD Successfully Demonstrated
Recovery of the Authentication Services-Fiscal Services CA System

May 11, 2010



Office of
Inspector General
Department of the Treasury
 Audit Report.……………………………………………..……………………………………3

 Results in Brief ............................................................................................... 3

 Background .................................................................................................... 3

 Finding .......................................................................................................... 4

   BPD Successfully Demonstrated Disaster Recovery Capability for the
   Authentication Service–Fiscal Services CA System …………………. ................. 4


Appendices

  Appendix      1:      Objective, Scope, and Methodology ...........................................7
  Appendix      2:      Management Comments ...........................................................8
  Appendix      3:      Major Contributors ...................................................................9
  Appendix      4:      Report Distribution ................................................................. 10

Abbreviations

      BPD               Bureau of the Public Debt
      CA                certificate authority
      FMS               Financial Management Service




                        INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery                        Page 1
                        of the Authentication Services–Fiscal Services CA System (OIG-10-039)
         This page intentionally left blank.




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 2
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General


                        May 11, 2010


                        Van Zeck, Commissioner
                        Bureau of the Public Debt

                        Our overall objective for this audit was to determine if the Bureau
                        of the Public Debt (BPD) could successfully demonstrate disaster
                        recovery capability for the Authentication Services–Fiscal Services
                        Certificate Authority (CA) system. To accomplish this objective, we
                        observed the disaster recovery exercise held at BPD on January 27,
                        2010, and reviewed the disaster recovery documentation for the
                        exercise.

                        We performed our fieldwork at BPD facilities in West Virginia on
                        January 27, 2010. The audit was performed in accordance with
                        generally accepted government auditing standards. 1 Our objective,
                        scope, and methodology are described in appendix 1.

Results In Brief
                        We found that BPD successfully demonstrated disaster recovery
                        capability for the Authentication Services–Fiscal Services CA
                        system in January 2010. BPD met exercise objectives by
                        successfully recovering the system at an alternate location, testing
                        the functionality of the certification authority, and restoring service
                        at the primary location.

Background
                        BPD’s mission is to borrow the money needed to operate the
                        federal government, account for the resulting debt, and provide
                        reimbursable support services to federal agencies. BPD borrows by
                        selling Treasury bills, notes, bonds, and savings bonds. BPD pays

1
    Government Accountability Office, Government Auditing Standards, GAO-07-731G (July 2007).

                        INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery          Page 3
                        of the Authentication Services–Fiscal Services CA System (OIG-10-039)
          interest to purchasers of those securities and redeems the
          securities when the time comes to pay back the loans. Every time
          BPD borrows or pays back money, it affects the outstanding debt
          of the United States.

          To manage its programs, BPD must ensure that reliable systems
          and processes are in place for buying and transferring Treasury
          securities. As of September 30, 2009 and 2008, federal debt
          managed by BPD totaled about $11.9 trillion and $10.0 trillion,
          respectively, primarily for moneys borrowed to fund the
          government’s operations. These balances consisted of
          approximately (1) $7.6 trillion and $5.8 trillion of debt held by the
          public as of September 30, 2009 and 2008, respectively, and (2)
          $4.3 trillion and $4.2 trillion of intragovernmental debt holdings as
          of September 30, 2009 and 2008, respectively. Total interest
          expense on federal debt managed by BPD for fiscal years 2009 and
          2008 was about $381 billion and $454 billion, respectively. BPD is
          responsible for accounting for the public debt of the United States
          and for providing timely and accurate reports on that debt.

          Through its Franchise Services, BPD offers a wide range of
          administrative and technology services, on a fully reimbursable
          basis, to many other federal agencies. The Authentication
          Services–Fiscal Services CA system is one of these services; it
          provides secure identification verification for devices and users for
          BPD and other subscriber organizations. The system is maintained
          and operated by BPD and Treasury’s Financial Management Service
          (FMS).


Finding   BPD Successfully Demonstrated Disaster Recovery
          Capability for the Authentication Services–Fiscal
          Services CA System
          BPD successfully demonstrated disaster recovery capability for the
          Authentication Services–Fiscal Services CA system by activating
          the backup system at the alternate facility within 4 hours of the
          simulated failure of the primary system. In addition, FMS, in
          coordination with BPD, conducted a functional test of the backup
          system and determined that user certificates could be created and
          managed on the backup system. Finally, BPD was able to restore
          services to the primary system.

          INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 4
           of the Authentication Services–Fiscal Services CA System (OIG-10-039)
During the disaster recovery exercise, two issues presented
obstacles to the system administrators, which were resolved during
the exercise.

•   When first attempting to recover the system, BPD
    administrators found that the hardware key stored at the
    backup facility, which is necessary to start the backup system,
    was not functional. The administrators were able to utilize an
    additional backup key retrieved from offsite to continue the
    recovery of the system. The location and availability of the
    offsite key were documented in the system recovery plan.

•   After the backup system was started, testing for functionality
    was performed remotely by an FMS administrator. During the
    tests, the FMS administrator encountered an error in creating a
    new user certificate. The BPD system administrators determined
    that the recovery software did not create a required directory.
    They manually created the directory, and the FMS administrator
    was able to successfully conclude functionality testing.

While onsite at BPD’s alternate facility, we also performed a limited
assessment of physical security controls. We found that security at
the alternate facility site was adequate to protect the system.

During our review of the after-action report prepared by BPD, we
noted that BPD had documented both of the issues noted above
that were encountered during the disaster recovery exercise.
Because neither issue prevented successful recovery and testing of
the system, and recovery was completed within the required
timeframe, we consider the test to be fully successful. As such,
we do not have recommendations to offer at this time.

Management Response. Management agreed with the conclusions
in this report with regard to its disaster recovery capability for the
Authentication Services–Fiscal Services CA system. BPD’s formal
response is in appendix 2.

OIG Comment. We acknowledge and appreciate management’s
response.




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 5
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
                                 ******

I would like to extend my appreciation to BPD for the cooperation
and courtesies extended to my staff during the review. If you have
any questions, please contact me at (202) 927-5171 or
Abdirahman Salah, IT Audit Manager, Office of Information
Technology Audits, at (202) 927-5763. Major contributors to this
report are listed in appendix 3.


/s/

Tram Jacquelyn Dang
Audit Director




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 6
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
Appendix 1
Objective, Scope, and Methodology


Our overall objective for this audit was to determine if the Bureau
of the Public Debt (BPD) could successfully demonstrate the
disaster recovery capability for the Authentication Services–Fiscal
Services CA system. To accomplish this objective, we reviewed
the planning documentation related to the system and the specific
exercise; observed the disaster recovery exercise held on January
27, 2010, at BPD’s alternate facility in West Virginia; met with the
appropriate information technology personnel; and reviewed and
analyzed BPD’s after-action report.

We also reviewed BPD’s adherence to applicable criteria for
disaster recovery capability and demonstration of disaster recovery
capability. Specifically, we reviewed the following Office of
Management and Budget (OMB), National Institute of Standards
and Technology (NIST), and Treasury policies, which served as
criteria for our audit:

   •   OMB Memorandum M-09-29, “FY 2009 Reporting
       Instructions for the Federal Information Security
       Management Act and Agency Privacy Management”
   •   NIST Special Publication 800-53, revision 2, “Recommended
       Security Controls for Federal Information Systems”
   •   NIST Special Publication 800-34, “Contingency Planning
       Guide for Information Technology Systems”
   •   NIST Special Publication 800-84, “Guide to Test, Training,
       and Exercise Programs for IT Plans and Capabilities”
   •   Treasury Directive Publication 85-01, “Treasury Information
       Technology Security Program Volume 1 Unclassified
       Systems version 2.2.2.”

This audit was performed in accordance with generally accepted
government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. This audit was included
in the Office of Inspector General Annual Plan for 2010. The
results of this audit may be used to support our work undertaken in
accordance with the requirements of the Federal Information
Security Management Act.




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 7
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
Appendix 2
Management Comments




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 8
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
Appendix 3
Major Contributors


Office of Information Technology Audits

Tram J. Dang, Director, Office of Information Technology Audit
Abdirahman M. Salah, Information Technology Audit Manager
Gerald J. Steere, Information Technology Specialist
Shiela S. Michel, Referencer




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 9
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
Appendix 4
Report Distribution

Bureau of the Public Debt

   Commissioner

Department of the Treasury

   Office of Accounting and Internal Control
   Office of Strategic Planning and Performance Management
   Office of the Chief Information Officer

Office of Management and Budget

   Office of Inspector General Budget Examiner




INFORMATION TECHNOLOGY: BPD Successfully Demonstrated Recovery           Page 10
 of the Authentication Services–Fiscal Services CA System (OIG-10-039)
